Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Counsel for Federal Communications Commission, et al.
Helgi C. Walker
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
hwalker@gibsondunn.com
202-887-3599
Counsel for National Association of Broadcasters, et al.
Jack N. Goodman
Law Offices of Jack N. Goodman
1200 New Hampshire Avenue, NW
Suite 600
Washington DC 20036
jack@jackngoodman.com
202-776-2045
Counsel for Independent Television Group

